             U.S. Agency for
             INTERNATIONAL
             DEVELOPMENT

             RIG/San Salvador




             July 15, 2002

             MEMORANDUM

             FOR:               USAID/Dominican Republic Director, Elena Brineman

             FROM:              Acting RIG/San Salvador, Steven H. Bernstein “/s/”

             SUBJECT:           Risk Assessment of Major Functions Within USAID/Dominican
                                Republic (Report No. 1-517-02-002-S)

             This memorandum is our report on the subject risk assessment. This is not an audit
             report, and does not contain any recommendations for your action. Your comments
             on our draft report have been included in their entirety in Appendix II.

             I appreciate the cooperation and courtesy extended to my staff during the risk
             assessment. My staff benefited by the time they spent speaking with your program
             and administrative managers.



Background   USAID/Dominican Republic is in the final year of its fiscal year 1997 strategic
             plan. A new six-year plan has been developed with activities to help ensure that
             poor Dominicans share in the benefits of economic growth, to help the Dominican
             society advance its democracy, and to help improve health conditions.

             USAID/Dominican Republic’s program areas and their planned fiscal year 2002
             and 2003 funding levels, in millions, are presented in the following table:
                                                   FY 2002        FY 2003

 Policy – Economic, Energy, Education, and            $ 3.0          $ 4.4
    Environment

 Population and Health – HIV/AIDS,                      9.5           11.4
    reproductive Health, Child Survival,
    Health Network, Field Support

 Justice, Democracy and Governance –                    5.5            7.1
    Rule of Law, Civil Society
                                                      $18.0          $22.9

The General Accounting Office (GAO) noted in “Standards for Internal Control
in the Federal Government” (November 1999) that internal controls should
provide reasonable assurance that agency objectives are being achieved,
operations are effective and efficient, and assets are safeguarded against loss.
Internal controls consist of the following five interrelated components. These
components are the minimum level for internal control and provide the basis
against which internal control is to be evaluated.

1. Management and employees should establish and maintain a control
   environment throughout the agency that sets a positive and supportive attitude
   toward internal control and conscientious management.

2. Internal control should provide for an assessment of the risks the agency faces
   from both external and internal sources.

3. Internal control activities should be effective and efficient in accomplishing
   the agency’s control objectives and help ensure that management’s directives
   are carried out.

4. Information should be recorded and communicated to management and others
   within the agency who need it and in a form and within a time frame that
   enables them to carry out their internal control and other responsibilities.

5. Internal control monitoring should assess the quality of performance over time
   and ensure that the findings of audits and other reviews are promptly resolved.

This review focused on the second component—risk assessment. The GAO
standards note that the specific risk analysis methodology used can vary because
of differences in agencies’ missions and the difficulty in qualitatively and
quantitatively assigning risk levels.




                                                                                    2
Discussion   USAID/Dominican Republic manages activities in the following major areas.
             Our assessments of the risk exposure for each of these functions are described
             below.

                              Function Description                            Risk Exposure
              Policy – develops economic, energy, education, and                   Low
              environment policies
                                        Risk Assessment Factors

              •   Strategic objective teams comprised of members from multiple disciplines
                  representing all mission functions.

              •   Management has instituted monitoring and progress reporting activities.

              •   Mission management demonstrates a commitment to management control.

              •   Implementers are subject to periodic audits.

              •   A new strategy is beginning to be implemented.

              •   With a $3 million fiscal year 2002 planned funding level, the function is
                  relatively small for the mission.

              •   It is difficult to establish a direct causal link between USAID efforts and
                  intended results.

              •   The mission’s Federal Managers’ Financial Integrity Act (FMFIA) review
                  did not disclose material weaknesses in this area.




                                                                                                3
                 Function Description                             Risk Exposure
Population and Health – oversees HIV/AIDS,                          Moderate
reproductive health, child survival, health network,
and field support activities
                             Risk Assessment Factors

•   Strategic objective teams comprised of members from multiple disciplines
    representing all mission functions.

•   Management has instituted monitoring and progress reporting activities.

•   Team member duties have been defined.

•   Mission management demonstrates a commitment to management control.

•   Implementers are subject to periodic audits.

•   The mission is aware of allegations against a USAID recipient. The recipient
    has allegedly tried to obtain reimbursements for the same expenses from
    multiple donors.

•   With a $9.5 million fiscal year 2002 planned funding level, the function is
    the mission’s largest.

•   HIV/AIDS activities are high profile, sensitive activities.

•   The mission’s FMFIA review did not disclose material weaknesses in this
    area.




                                                                                  4
                 Function Description                         Risk Exposure
Justice, Democracy and Governance – promotes                    Moderate
rule of law and civil society issues
                              Risk Assessment Factors

•   Strategic objective teams comprised of members from multiple disciplines
    representing all mission functions.

•   Management has instituted monitoring and progress reporting activities.

•   Mission management demonstrates a commitment to management control.

•   A new strategy is beginning to be implemented.

•   Implementers are subject to periodic audits.

•   With a $5.5 million fiscal year 2002 planned funding level, the function is
    the significant relative to total mission funding.

•   The political will on the part of the government of the Dominican Republic
    to undertake reform is uncertain.

•   The mission’s FMFIA review did not disclose material weaknesses in this
    area.




              Function Description                            Risk Exposure
Program Office—coordinates budget and annual                       Low
reporting
                        Risk Assessment Factors

•   Activities are lead by experienced USAID staff.

•   Strategic objective teams comprised of members from multiple disciplines
    representing all mission functions.

•   Mission management demonstrates a commitment to management control.




                                                                                  5
               Function Description                            Risk Exposure
Controller’s Office—responsible for accounting,                  Moderate
voucher payment, and financial analysis
                          Risk Assessment Factors

•   Activities are lead by experienced USAID staff.

•   Strategic objective teams comprised of members from multiple disciplines
    representing all mission functions.

•   Mission management demonstrates a commitment to management control.

•   Operations follow specific, well-defined procedures.

•   Duties are segregated.

•   The Mission Accounting and Control System (MACS) has inherent security
    limitations.

•   We judged the function to have a high level of inherent risk due to the high
    number of regulations that control operations and the high volume and high
    value of payments disbursed.

•   Two financial audits were done by the Regional Inspector General (RIG)
    during fiscal year 2001.

       •   In an audit of certain financial operations, the RIG concluded that
           advances, disbursements, and balances as of March 31, 2000 were
           properly processed and reported.

       •   In an audit of the mission’s recipient contracted audit universe the
           RIG concluded that a complete and accurate audit universe was
           developed but that audits were not submitted in a timely manner.

•   The mission’s FMFIA review did not disclose material weaknesses in this
    area.




                                                                                   6
               Function Description                          Risk Exposure
Contracting Office—provides contract negotiation,              Moderate
change order management, contract drafting, and
contract management services
                          Risk Assessment Factors

•   Regional Contracting Officer has over 15 years experience with USAID.

•   Members of the Contracting Office are also members of the strategic
    objective teams.

•   Contracting procedures regulated and defined.

•   Contract preparation and management software is reported to be inefficient
    and inaccurate.

•   The mission’s FMFIA review did not disclose material weaknesses.




                                                                                 7
                              Function Description                                  Risk Exposure
              Executive Office—provides general services to the                       Moderate
              mission including information systems, personnel,
              procurement, maintenance, motor pool, and property
              management
                                         Risk Assessment Factors

              •    Staffing of Executive Officer position is uncertain.

              •    Strategic objective teams comprised of members from multiple disciplines
                   representing all mission functions.

              •    Mission management demonstrates a commitment to management control.

              •    Operations follow specific, well-defined procedures.

              •    We judged the function to have a high level of inherent risk due to the high
                   number of regulations that control operations and the high volume of low
                   dollar value purchases requested.

              •    The Information Systems Security Officer is a U.S. direct hire but does not
                   have extensive information systems security experience.

              •    The mission’s FMFIA review did not disclose material weaknesses.




Conclusion   This review assigned a risk exposure judgement of high, moderate, or low for
             each major function. A higher risk exposure judgement implies that the program
             objectives for a particular function are more vulnerable to not being achieved or
             to experiencing irregularities. Appendix I describes in detail our risk
             assessment’s scope and methodology.

             In judging the risk exposure for the administrative and program functions in
             USAID/Dominican Republic, we considered:

             •    the amount of funding the individual programs received relative to the overall
                  mission budget (see Background section for details of the mission’s $18
                  million fiscal year 2002 program budget),

             •    the level of U.S. political interest in the program activities,



                                                                                                    8
•    the level of involvement and/or support provided by the Government of the
     Dominican Republic,

•    the experience of key staff members in their area of expertise as well as in the
     Dominican Republic,

•    incidences of improper administration or material weaknesses (if any) noted in
     prior reviews and/or as reported by mission officials,

•    management support for internal controls, and

•    the level of risk inherently present in an activity that program or
     administrative objectives will not be met.

Our risk assessment of USAID/Dominican Republic covered seven functions.
We judged five functions to have a “moderate” risk exposure and two to have a
“low” risk exposure as illustrated in the following table.

                                                         Risk Exposure
               Function Description                 High   Moderate    Low
    Policy – develops economic, energy,
    education, and environment policies                                     9
    Population and Health – oversees
    HIV/AIDS, reproductive health, child                         9
    survival, health network, and field support
    activities
    Justice, Democracy and Governance –
    promotes rule of law and civil society                       9
    issues
    Program Office—coordinates budget and
    annual reporting                                                        9
    Controller’s Office—responsible for
    accounting, voucher payment, and                             9
    financial analysis
    Contracting Office—provides contract
    negotiation, change order management,                        9
    contract drafting, and contract management
    services
    Executive Office—provides general
    services to the mission including                            9
    information systems, personnel,
    procurement, maintenance, motor pool, and
    property management



                                                                                    9
We judged the Population and Health program and the Justice, Democracy and
Governance program to have moderate risk exposures due to the relative size of
the programs within the mission portfolio and due to the current level of political
interest in HIV/AIDS activities.

We judged the Executive Office, the Contracting Office, and the Controller’s
Office to have moderate risk exposures because of inherent risks that accompany
the functions of these offices.

Related to all mission functions, we judged that the control environment and the
structure of the Strategic Objective teams were beneficial in lowering the risk
exposure. Commitment to the control environment was demonstrated in the
importance given to issues identified by the Mission Control and Review
Committee. Including employees from the Executive Office, the Contracting
Office, the Controller’s Office, and the Program Office as members of the
Strategic Objective teams improves communication.




                                                                                 10
                                                                                   Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted a risk assessment of
              major functions within USAID/Dominican Republic. The risk assessment
              considered operations principally for fiscal year 2002. The risk assessment was
              conducted at USAID/Dominican Republic from April 22, 2002 to April 26, 2002.

              Methodology

              We interviewed officials as well as reviewed related documentation of major
              functions performed by USAID/Dominican Republic. These documents covered
              background, organization, management, budget, staffing responsibilities, and
              prior reviews. Our review of USAID/Dominican Republic documentation was
              isolated and judgmental in nature and was conducted principally to confirm oral
              attestations of management.

              We identified USAID/Dominican Republic’s major functions based on input from
              the Mission Director, discussions with mission staff, and review of mission
              reports. We judged risk exposure (e.g., the likelihood of significant abuse, illegal
              acts, and/or misuse of resources, failure to achieve program objectives, and
              noncompliance with laws, regulations and management policies) for those major
              functions. We assessed overall risk exposure as high, moderate, or low. A higher
              risk exposure simply indicates that the particular function is more vulnerable to
              not achieving its program objectives or to experiencing irregularities. We
              considered the following key steps in assessing risk exposure:

              1. determined significance and sensitivity;

              2. evaluated susceptibility (inherent risk) of failure to attain program goals,
                 noncompliance with laws and regulations, inaccurate reporting, or illegal or
                 inappropriate use of assets or resources;

              3. were alert to "red flags” such as a history of improper administration or
                 material weaknesses identified in prior audits/internal control assessments,
                 poorly defined and documented internal control procedures, or high rate of
                 personnel turnover;

              4. considered management support and the control environment;

              5. considered competence and adequacy of number of personnel;

              6. identified and understood relevant internal controls; and

              7. determined what was already known about internal control effectiveness.



                                                                                                11
                                                                         Appendix I


These risk exposure assessments were not sufficient to make definitive
determinations of the effectiveness of internal controls for major functions. As
part of the scope of our review, we (a) identified, understood, and documented
(only as necessary) relevant internal controls and (b) determined what was already
known about the effectiveness of internal controls. However, we did not (a)
assess the adequacy of internal control design, (b) determine if controls were
properly implemented, nor (c) determine if transactions were properly
documented.

Our risk assessment of USAID/Dominican Republic’s major functions has the
following limitations in their application.

•   First, we assessed risk exposure at the major function level only.

•   Second, we only assessed risk exposure. Our assessments were not sufficient
    to make definitive determinations of the effectiveness of internal controls for
    major functions. Consequently, we did not (a) assess the adequacy of internal
    control design, (b) determine if controls were properly implemented, nor (c)
    determine if transactions were properly documented.

•   Third, higher risk exposure assessments are not definitive indicators that
    program objectives were not being achieved or that irregularities were
    occurring. A higher risk exposure simply implies that the particular function
    is more vulnerable to such events.

•   Fourth, risk exposure assessments, in isolation, are not an indicator of
    management capability due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.

•   Fifth, comparison of risk exposure assessments between organizational units
    is of limited usefulness due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.




                                                                                 12
                                                                               Appendix II


Management   Date:         June 5, 2002
Comments
             To:           Tim Cox, RIG/SS

             From:         Elena Brineman, Director, USAID/Dominican Republic

             Subject:      Risk Assessment of USAID/Dominican Republic’s
                           Administrative and Program Operations



             USAID/Dominican Republic would like to thank RIG/SS for the subject Risk
             Assessment. We concur with the findings. Of particular note is the
             memorandum’s mention that “Mission management demonstrates a commitment
             to management control.” I personally take great interest in having excellent
             internal controls. The senior management team of this mission also takes interest
             in minimizing the inherent operating risks that we face in the Dominican
             Republic. I appreciate your staff’s formal recognition of this in the report.

             On page 8, the last paragraph should be corrected to state: We judged five
             functions to a “moderate” risk exposure and two to have a “low” risk exposure as
             illustrated in the following table.




                                                                                           13
